         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
Non-Facility Contractor Prior
Performance




DOE/IG-0857                          October 2011
                                 Department of Energy
                                   Washington, DC 20585
                                       October 28, 2011


MEMORANDUM FOR THE SECRETARY

FROM:                   Gregory H. Friedman
                        Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Non-Facility Contractor Prior
                         Performance"

INTRODUCTION AND OBJECTIVE

The Department of Energy obligated approximately $89 billion during Fiscal Years 2009 and
2010, through various contracts and financial assistance awards, including contracts funded by the
American Recovery and Reinvestment Act of 2009. Holding contractors accountable for past
performance is an important tool for making sure that the Federal government and the taxpayers
that it represents, receive good value from its contracts. To determine whether a prospective
awardee is responsible, the Federal Acquisition Regulation (FAR) and the Code of Federal
Regulations contain provisions requiring contracting officials to consider the prospective awardees
past performance. Officials are also required to determine, prior to award, whether an offeror is
excluded from receiving Federal contracts and financial assistance awards because of, among other
things, past poor performance. To provide current information for source selection purposes,
agencies are also required to prepare and submit an evaluation of contractor performance within
120 calendar days after the end of the evaluation period for each contract that exceeds the
simplified acquisition threshold. Simplified acquisition threshold amounts during the audit period
were $550,000 for construction, $100,000 for supplies and services, and $30,000 for architect and
engineering services contracts.

Both the U.S. Government Accountability Office and the Office of Management and Budget
(OMB) have stressed the importance of ensuring that past contractor performance is adequately
documented and considered prior to subsequent awards. In a January 2011 memorandum to
Chief Acquisition Officers, OMB noted that its comparison of data from the Federal
Procurement Data System and the Past Performance Information Retrieval System indicated that
past performance assessments had been completed for only a small percentage of awards,
especially in civilian agencies. We initiated this audit to determine whether the Department
adequately considered contractor prior performance when making new non-facility contract and
financial assistance awards.

RESULTS OF AUDIT

The Department had not always considered prior contractor performance nor completed contractor
performance assessments in a timely manner for non-facility contract and financial assistance
awards. In particular, our review of contractor performance assessment reports and a random
sample of contract and financial assistance awards and close outs, of the same types of actions at
three sites, found that the Department could not demonstrate that it had:
    • Evaluated contractor prior performance before making 104 of the 519 (20 percent)
      contracts and financial assistance awards we reviewed. As such, the Department had not
                                                 2


        ensured that it was making best value selections in competitive awards and in making
        contractor responsibility determinations for sole source contracts;

    • Reviewed the Government-wide Excluded Parties List System to ensure that offerors and
      applicants were not debarred from doing business with the Federal Government for 42 of
      519 (8 percent) of our sample items. Even though the Department could not confirm that
      a review of the contractor's eligibility had been performed, we were able to readily
      discern based on our own testing that none of the 42 contractors had been debarred; and,

    • Completed post award contractor performance evaluations within the required 120
      calendar days after the evaluation period for 323 of the 881 (37 percent) contracts
      requiring such an evaluation that we reviewed. In fact, 192 evaluations were overdue by
      6 months or more. This practice deprives the Department and other Federal agencies of
      information necessary to make informed procurement decisions.

Pre-award evaluations of a prospective contractor's prior performance and reviews of the
Excluded Parties List System were not always conducted primarily because procurement officials
and/or contracting personnel did not follow or apply Federal and Departmental requirements and
procedures. With regard to sole source procurements, officials at the National Energy
Technology Laboratory and the Office of Headquarters Procurement Services indicated that they
did not evaluate prior performance for such awards because, presumably, the contractors were the
only sources available to obtain the services. Yet, we determined that the FAR requires
contracting officers to make determinations about the responsibility of prospective contractors as
evidenced, in part, by their performance record – with no specific exclusion for sole source
procurements. Under the FAR, even in sole source situations, contracts can only be awarded to
responsible contractors; thus, the essential need for a responsibility determination.

Officials at the National Nuclear Security Administration's (NNSA) Albuquerque Complex
indicated that the signature of an appropriate Federal contract professional on a sole source
contract award provided sufficient evidence to support that an assessment of past performance
had been performed. However, they could not provide additional support such as documents and
reports that would show that the contractor's prior performance had been evaluated or other
contracts where an evaluation of prior performance had been performed.

Department officials also indicated that they did not believe that evaluations of prior performance
for financial assistance awards were required. Although the FAR does not address financial
assistance awards, the Department's Guide to Financial Assistance states that the contracting
officer is responsible for assessing a prospective award recipient's past performance to determine
whether the recipient has a history of poor programmatic performance. We also noted that OMB
Circulars and the Code of Federal Regulations allow the Department to impose additional
requirements as needed if, among other things, an applicant or recipient has a history of poor
performance.

Finally, Department officials stated that post award evaluations of contractor performance were
often not performed because contracting officer's representatives did not place sufficient emphasis
on completing this requirement. They also told us that the contracting officer's representatives
                                                   3


generally are employed by a program office outside of the contracting organization, which limits
the ability of procurement officials to affect the contracting officer's representatives' input into the
Contractor Performance Assessment Reporting System. Procurement officials at the three sites
we visited told us that they were aware of the magnitude of the overdue evaluation reports and
were actively working to eliminate the backlog of uncompleted evaluations.

With literally billions of dollars in taxpayer provided funds in play for Department contracts,
grants and financial assistance awards, procurement and program officials need all of the
information they can gather to ensure that they make the best possible award decisions.
Developing meaningful post award performance assessments and objective evaluations of
contractor past performance prior to award are critical to ensuring that the Government does
business with companies that deliver quality goods and services on time and within budget; and,
that the taxpayer's interests are protected.

We have provided several recommendations involving the adoption of best practices that should
help the Department improve its controls over the evaluation of contractor prior performance and
help resolve the particular issues identified in this report.

MANAGEMENT COMMENTS

The Office of Management and NNSA provided comments on a draft of this report. NNSA
generally agreed with the report's findings and recommendations and stated that it would take
action to address each of our recommendations. The Office of Management, while agreeing with
portions of the finding and recommendations, disagreed that contracting officers were required to
review a prospective awardee's prior performance as part of the financial assistance selection
process. We recognize that Federal regulations do not require such an evaluation as part of the
selection process. However, contracting officers are required to evaluate the awardee's prior
performance in order to determine whether special terms and conditions should be included in the
award. In addition, management provided specific points of clarification for consideration,
specifically in the financial assistance awards and documentation areas. As appropriate, we
modified our report in response to management's comments which are included in their entirety in
Appendix 3.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Administrator, National Nuclear Security Administration
    Under Secretary for Science
    Acting Under Secretary of Energy
    Director, Office of Management
    Chief of Staff
REPORT ON NON-FACILITY CONTRACTOR PRIOR PERFORMANCE



TABLE OF
CONTENTS


Contractor Performance Assessment

Details of Finding                                     1

Recommendations and Comments                           7


Appendices

1. Objective, Scope and Methodology                   10

2. Related Report                                     12

3. Management Comments                                13
CONTRACTOR PERFORMANCE ASSESSMENT

Use of Contractor   The Department of Energy (Department) had not always
Performance         effectively used contractor performance data in its
Information         procurement process. Specifically, the Department could not
                    always demonstrate that it had:

                          Evaluated prior contractor performance before making
                           contract awards and finalizing financial assistance awards;

                          Reviewed the Government-wide Excluded Parties List
                           System (EPLS) to ensure that offerors and applicants were
                           not debarred from Federal Government contracts and
                           financial assistance awards; nor,

                          Completed contractor performance evaluations in a timely
                           manner.

                    The Federal Acquisition Regulation (FAR) requires the use of past
                    performance information in source selections for negotiated
                    competitive acquisitions expected to exceed the simplified
                    acquisition threshold. Simplified acquisition threshold amounts
                    are based on the type of goods and services procured. During the
                    audit period, threshold amounts were $550,000 for construction,
                    $100,000 for supplies and services, and $30,000 for architect and
                    engineering services contracts. For those awards that are not
                    competitive, the FAR indicates that purchases shall be made from,
                    and contracts awarded to, responsible contractors only. A contract
                    is not to be awarded unless the contracting officer has made an
                    affirmative determination of the awardee's responsibility, which
                    includes a satisfactory performance record. Special award
                    conditions can be applied to financial assistance awards governed
                    by Office of Management and Budget (OMB) Circulars A-102 and
                    A-110 if, among other things, the applicant or recipient has a
                    history of poor performance. The FAR also requires that agencies
                    prepare an evaluation of contractor performance for each contract
                    that exceeds the simplified acquisition threshold in order to
                    provide current information for source selection purposes.

                    Further, a July 2002 memorandum from OMB required all Federal
                    contractor past performance information to be centrally available
                    online for use by all contracting officials through the Past
                    Performance Information Retrieval System (PPIRS). The PPIRS is
                    designed to provide the acquisition community with timely and
                    pertinent contractor information that can be used in making source
                    selection decisions and can be expanded to include information on
                    grantee performance and final reporting.




Page 1                                                             Details of Finding
         The following sections of this report discuss in more detail the
         results of our review of Contractor Performance Assessment
         Reporting System (CPARS) status reports at the National Energy
         Technology Laboratory (NETL), the National Nuclear Security
         Administration's (NNSA) Albuquerque Complex, and the
         Department's Office of Headquarters Procurement Services
         (Headquarters); and random samples of 224 of 861 contracts and
         295 of 2,042 financial assistance awards that were either awarded
         or closed during Fiscal Years 2009 and 2010, by these three sites.

                Evaluation of Prior Performance When Making Award

         Award files did not always include evidence that contracting
         officers at each of the three locations reviewed had assessed
         prospective awardees' prior performance before making the final
         award decision. Pre-award evaluations are designed to result in an
         assessment of the offeror's ability to successfully accomplish the
         award. As illustrated in the table below, the Department could not
         confirm that it had evaluated contractor prior performance before
         making an award for 20 percent of the contracts and financial
         assistance awards we reviewed.

                                                        Prior
                                        Sample      Performance
                 Location/Type           Size       Not Evaluated   Percent
          NETL Contracts                  35              3            9%
          NNSA Contracts                   74            21           28%
          Headquarters Contracts          115            27           23%
          NETL Financial Assistance       128             6            5%
          NNSA Financial Assistance        79            12           15%
          Headquarters Financial          88             35           40%
          Assistance
                     Total               519            104           20%

         Of the 104 instances in which contractor prior performance was
         not evaluated prior to making an award, we found that:

                47 were financial assistance awards;

                36 were competitive awards;

                15 were sole source awards; and,

                6 were legacy awards transferred from sites not included in
                 our review.




Page 2                                                   Details of Finding
         Pre-award evaluations of a prospective awardee's prior
         performance enable the Department to better predict the quality of,
         and satisfaction with, future work when making best value
         selections, and to help ensure that taxpayer dollars are not wasted
         on awards to non-responsible recipients.

         In contrast to other locations, our review noted that NETL
         consistently evaluated contractor prior performance when making
         new contract and financial assistance awards. According to NETL
         officials, six of the financial assistance awards where contractor
         prior performance was not evaluated were legacy awards, which
         were awards assigned to NETL for administration after the
         awarding Energy Efficiency and Renewable Energy regional office
         was closed. Additionally, NNSA indicated that it had recently
         visited NETL to evaluate NETL's contractor prior performance
         evaluation procedures with a view toward potentially incorporating
         them into its own financial assistance award procedures.

                      Utilization of the Excluded Parties List System

         We also found that award files did not always include evidence
         that prospective contractors were reviewed against the EPLS at
         each of the three locations visited. The purpose of the EPLS is to
         provide a single comprehensive listing of individuals and firms
         excluded by Federal Government agencies from receiving Federal
         contracts and financial assistance awards. Contracting officials are
         required to review the EPLS to ensure that contracts and financial
         assistance awards are made to responsible contractors only and that
         no award is made to an excluded individual or firm. Based on our
         review, we determined that no awards had been made to an
         individual or firm listed on the EPLS at the three sites we visited.
         However, as illustrated in the table below, we noted 42 instances
         where the Department could not confirm that a review of the EPLS
         had been performed.
                                               Sample       EPLS Not
                      Location/Type             Size         Utilized      Percent
             NETL Contracts                       35            0            0%
             NNSA Contracts                       74           14           19%
             Headquarters Contracts              115           19           17%
             NETL Financial Assistance           128            21           2%
             NNSA Financial Assistance            79            3            4%
             Headquarters Financial               88            4            5%
             Assistance
                          Total                  519            42           8%




         1
          NETL officials indicated that these two exceptions were awards assigned to
         NETL for administration after the awarding Energy Efficiency and Renewable
         Energy regional office was closed.

Page 3                                                         Details of Finding
         While the Department lacked assurance of the appropriateness of
         these awards, we were able, however, to readily determine through
         our independent test work that none of the awards were made to
         excluded parties. Failure to routinely utilize the EPLS places the
         Department at risk of unknowingly making an award to an
         individual or firm that is suspended or debarred from doing
         business with the Federal Government.

                 Evaluation of Post Award Contractor Performance

         Department contracting personnel had also not always completed
         and submitted post award contractor performance evaluations in a
         timely manner for a significant number of contract awards at each
         of the three locations visited. To provide current information for
         source selection purposes, agencies are required to prepare and
         submit an evaluation of contractor performance within 120
         calendar days after the end of the evaluation period for each
         contract that exceeds the simplified acquisition threshold. Interim
         evaluations are required to be prepared annually for contracts with
         a period of performance greater than one year. These evaluations
         are to be reported in PPIRS through CPARS, the Department's
         mandated system used to report performance information. CPARS
         accumulates contracts requiring post award performance
         evaluations and establishes due dates for their completion.
         However, at the time of our site visits, almost two-thirds of the
         required evaluation reports at Headquarters and nearly half of
         NETL's evaluation reports had not been submitted. Additionally,
         some of the required evaluation reports had been overdue for more
         than a year. While the Department has made progress since then,
         many of the required reports remain overdue, as shown in the table
         below.

                           Total         0-6       6 to Over 12
                         Number of     Months         Months       Total
            Location     Contracts     Overdue       Overdue      Overdue
          NETL              274          50              31         81
          NNSA              302          42             65          107
          Headquarters      305          39             96          135
                 Total      881          131            192         323

         Timely, accurate and complete performance evaluations are
         essential to ensure that accurate data on contractor performance is
         current and available for use in all source selections. The
         evaluations provide a record of performance, both positive and
         negative, on a given contract during a specified time period.
         Failure to complete and submit timely post award evaluations
         deprives the Department, and other Federal agencies, of the
         information necessary to make informed procurement decisions.


Page 4                                                   Details of Finding
                 We determined that procurement offices for the three sites
                 included in our review were aware of the magnitude of the overdue
                 evaluation reports and were actively working to reduce those
                 numbers. For example, NETL officials indicated that they had
                 implemented a process to identify overdue CPARS evaluations
                 under their purview to reduce the number of delinquent evaluations
                 and promote awareness and responsiveness by the evaluators.
                 Officials at NNSA also indicated that they had developed a
                 CPARS corrective action plan which includes training,
                 incorporation of reporting responsibilities in contracting officer's
                 representative designation letters, and the distribution of periodic
                 delinquent CPARS performance reports; and are currently
                 participating on a Department-led team that is redefining the roles
                 and responsibilities of contracting officers and contracting officer's
                 representatives.

Consistent       Pre-award evaluations of a prospective contractor's prior
Application of   performance and reviews of the EPLS were not always conducted
Requirements     primarily because procurement officials and/or contracting
                 personnel did not follow or apply Federal and Department
                 requirements and procedures. Specifically, procurement officials
                 did not properly follow existing Federal and Departmental
                 requirements for evaluating past performance in competitive
                 acquisitions. As previously discussed, the FAR states that past
                 performance shall be evaluated in all source selections for
                 negotiated competitive acquisitions expected to exceed the
                 simplified acquisition threshold. Furthermore, Department
                 officials stated that post award evaluations of contractor
                 performance were not always conducted because contracting
                 officers and/or contracting officer's representatives did not place a
                 high enough priority on completing this requirement.

                 Officials at NETL and Headquarters indicated that they did not
                 evaluate prior performance for awards made via sole source
                 because the contractors were the only source available to obtain the
                 services. We determined, however, that in addition to specifically
                 requiring pre-award evaluations for competitive awards, the FAR
                 also requires contracting officers to make determinations about the
                 responsibility of prospective contractors as evidenced, in part, by
                 their performance record. Furthermore, contracting officers are
                 required to document in the contract file how prior performance
                 was considered in any responsibility determination. The FAR does
                 not specifically exclude prospective contractors being considered
                 under sole source procurements from the responsibility
                 determination.

                 NNSA officials indicated that the signature of an appropriate
                 Federal contract professional on a sole source contract award

Page 5                                                            Details of Finding
         provided sufficient evidence to support that an assessment of past
         performance had been performed. However, they could not
         provide additional support such as documents and reports that
         would indicate that the contractor's prior performance had been
         evaluated or other contracts where an evaluation of prior
         performance had been performed. In addition, our review of the
         Department's Acquisition Guide and site procedures disclosed that
         procedures had not been developed to evaluate past performance
         for sole source awards prior to making the award.

         Additionally, Department officials indicated that they did not
         believe that evaluations of prior performance for financial
         assistance awards were required. Although the FAR does not
         address financial assistance awards, the Department's Guide to
         Financial Assistance states that the contracting officer is
         responsible for assessing a prospective award recipient's past
         performance to determine whether the recipient has a history of
         poor programmatic performance. We also noted that OMB
         Circulars and the Code of Federal Regulations allow the
         Department to impose additional requirements as needed if, among
         other things, an applicant or recipient has a history of poor
         performance.

         Regarding reviews of the EPLS, officials at NNSA and
         Headquarters, where most of these instances occurred, indicated
         that the reviews should have been performed. NNSA indicated
         that current personnel have been advised that the EPLS shall be
         reviewed prior to making all awards.

         Also, untimely post award evaluations of contractor's performance
         occurred, according to procurement officials, because
         the contracting officer's representatives typically had multiple
         assignments and competing priorities, and did not place sufficient
         emphasis on completing this requirement. Management officials
         indicated that the rating portion of the past performance evaluation
         is the responsibility of the contracting officer's representative.
         However, the contracting officer's representatives generally are
         employed by a program office outside of the contracting
         organization, which limits the ability of procurement officials to
         affect the contracting officer's representatives' input into CPARS.
         The CPARS system automatically generates e-mail reminders 30
         calendar days before the evaluation report is due to help ensure
         that the reports are completed in a timely manner. Additional
         reminders are sent to the assessing official once the evaluations
         become overdue. These reminder e-mails continue to be sent on a
         weekly basis until the evaluations are completed. Despite these
         reminders, post award evaluations often remained overdue as a
         result of other work demands.

Page 6                                                   Details of Finding
Insufficient          Failure to conduct post contract award evaluations or to review
Information to Make   contractor prior performance may result in the contracting officer
Informed Award        lacking all of the necessary information to make informed contract
Decisions             decisions for ensuring the Federal Government receives good value
                      for its contracts. In a January 2011 memorandum to Chief
                      Acquisition Officers, OMB expressed concerns about the low
                      percentage of past performance assessments completed, noting that
                      source selection officials rely on clear and timely assessments of
                      contractor past performance to make informed business decisions
                      when awarding Federal contracts. As a result, meaningful past
                      performance assessments and a review of contractor prior
                      performance are critical to ensuring that the Government does
                      business with companies that deliver quality goods and services on
                      time and within budget. Furthermore, past performance
                      assessments of financial award recipients helps to ensure that an
                      award recipient is capable of carrying out activities designed to
                      serve a public purpose.

RECOMMENDATIONS       To ensure that the Department's contracting officials make
                      informed business decisions when awarding Federal contracts and
                      financial assistance, we recommend that the Administrator,
                      National Nuclear Security Administration, and the Director, Office
                      of Management, in conjunction with the Under Secretary for
                      Science and the Under Secretary of Energy, direct their respective
                      Senior Procurement Executives to require appropriate procurement
                      offices to adopt best practices aimed at ensuring that Federal
                      requirements are met. Specifically, Senior Procurement
                      Executives should require that:

                         1. Procurement officials consistently follow existing
                            procedures for evaluating a prospective contractor's or
                            awardee's prior performance before a competitive contract
                            is awarded or a financial assistance award is finalized;

                         2. Procurement officials consistently follow existing
                            procedures for reviewing prospective contractors against
                            the Excluded Party List System before an award is
                            finalized; and,

                         3. Contracting officers and contracting officer's
                            representatives complete all Contractor Performance
                            Assessment Reporting System evaluations in a timely
                            manner.




Page 7                                            Recommendations and Comments
             Further, we recommend that the Department's Senior Procurement
             Executive:

                4. Revise the Department's Acquisition Guide to include
                   procedures for evaluating a prospective contractor's prior
                   performance before a sole source contract is made, in
                   accordance with existing Federal determination of
                   responsibility requirements.

MANAGEMENT   The Office of Management and NNSA provided comments on
REACTION     the draft of this report. NNSA generally agreed with the report's
             finding and recommendations and stated that it would take action
             to address each of our recommendations. The Office of
             Management, while agreeing with portions of the finding and
             recommendations, disagreed that contracting officers were
             required to review a prospective awardee's prior performance as
             part of the financial assistance selection process. As such,
             management suggested that we remove financial assistance awards
             from our first recommendation. Management also indicated that
             contracting officers are not required to specifically document the
             fact that an affirmative responsibility determination has been made
             or that they checked the EPLS. In fact, they stated a contracting
             officer's signature may constitute a responsibility determination
             without any further rationale.

AUDITOR      We recognize that past performance is not a required selection
COMMENTS     factor for financial assistance awards. However, we believe that
             past performance should be considered before a financial
             assistance award is finalized. Specifically, the Department's
             Financial Assistance Rules, included in the Code of Federal
             Regulations, establish the Department's responsibility to determine
             if special terms and conditions should be placed on a financial
             assistance award recipient in cases where an applicant has a history
             of poor performance. Additionally, the Department's Guide to
             Financial Assistance states that the contracting officer is
             responsible for assessing a prospective award recipient's past
             performance to determine whether the recipient has a history of
             poor programmatic performance.

             We also recognize that a contracting officer's signing of a contract
             constitutes a determination that the prospective contractor is
             responsible with respect to that contract. However, we disagree
             that contracting officers are not required to specifically document
             the fact that an affirmative responsibility determination has been
             made. Specifically, the FAR requires contracting officers to
             document the contract file for each contract in excess of the



Page 8                                    Recommendations and Comments
         simplified acquisition threshold regarding how information was
         considered, including the use of EPLS, in any responsibility
         determination.

         We modified our report, as necessary, in response to management's
         comments. Management's comments are included in their entirety
         in Appendix 3.




Page 9                               Recommendations and Comments
Appendix 1

OBJECTIVE     To determine whether the Department of Energy (Department)
              adequately considered contractor prior performance when making
              new non-facility contract and financial assistance awards.

SCOPE         The audit was performed between October 2010 and October 2011,
              at the Department's Office of Headquarters Procurement Services
              in Washington, DC; the National Nuclear Security
              Administration's (NNSA) Albuquerque Complex in Albuquerque,
              New Mexico; and, the National Energy Technology Laboratory
              (NETL) in Pittsburgh, Pennsylvania. Our audit samples at these
              three sites were randomly selected from a universe of non-facility
              contracts and financial assistance awards that were either awarded
              or closed during Fiscal Years (FY) 2009 and 2010.

METHODOLOGY   To accomplish the audit objective, we:

                     Reviewed applicable Federal laws and regulations and
                      Department guides and procedures;

                     Reviewed prior Office of Inspector General and
                      Government Accountability Office reports;

                     Obtained a listing of all non-facility contracts and
                      financial assistance awards that were either awarded or
                      closed during FYs 2009 and 2010 from each site visited;

                     Reviewed random samples of 224 of 861 contract awards
                      and 295 of 2,042 financial assistance awards that were
                      either awarded or closed during FYs 2009 and 2010, by
                      NETL, NNSA and the Department's Office of
                      Headquarters Procurement Services;

                     Reviewed supporting documentation for our samples of
                      contracts and financial assistance awards;

                     Obtained reports from the Contractor Performance
                      Assessment Reporting System for each site visited
                      indicating contracts with overdue performance
                      evaluations; and,

                     Interviewed officials from the Department's Office of
                      Headquarters Procurement Services, NNSA and NETL
                      regarding the Department's consideration of contractor
                      prior performance.




Page 10                                  Objective, Scope and Methodology
Appendix 1 (continued)

                    We conducted this performance audit in accordance with generally
                    accepted Government auditing standards. Those standards require
                    that we plan and perform the audit to obtain sufficient, appropriate
                    evidence to provide a reasonable basis for our findings and
                    conclusions based on our audit objective. We believe that the
                    evidence obtained provides a reasonable basis for our finding and
                    conclusions based on our audit objective. The audit included tests
                    of controls and compliance with laws and regulations necessary to
                    satisfy the audit objective. We also assessed compliance with the
                    Government Performance and Results Act of 1993. We examined
                    performance metrics related to contractor prior performance and
                    found that the Department had established performance measures
                    as part of the balanced scorecard program. Because our review
                    was limited, it would not have necessarily disclosed all internal
                    control deficiencies that may have existed at the time of our audit.
                    We obtained and reviewed the computer processed data made
                    available to us in order to achieve our audit objective. We
                    validated the reliability of such data, to the extent necessary to
                    satisfy our audit objective, by tracing it to source documents or
                    other supporting information.

                    Officials from the Office of Management and NNSA waived an
                    exit conference.




Page 11                                         Objective, Scope and Methodology
Appendix 2

                                   RELATED REPORT


Government Accountability Office Report

      Federal Contractors: Better Performance Information Needed to Support Agency Award
       Decisions (GAO-09-374, April 2009). Contracting officials agreed that for past
       performance information to be useful for sharing, it must be documented, relevant, and
       reliable. However, The Government Accountability Office's (GAO) review of the Past
       Performance Information Retrieval System data for Fiscal Years 2006 and 2007,
       indicated that only a small percentage of contracts had a documented performance
       assessment. Other performance information that could be useful in award decisions, such
       as contract terminations for default and subcontract management, was not systematically
       captured across agencies. Specific to the Department of Energy, the GAO found only 22
       percent of the estimated contracts requiring an assessment had one actually performed.




Page 12                                                                      Related Report
Appendix 3




Page 13      Management Comments
Appendix 3 (continued)




Page 14                  Management Comments
Appendix 3 (continued)




Page 15                  Management Comments
Appendix 3 (continued)




Page 16                  Management Comments
                                                                    IG Report No. DOE/IG-0857

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy/gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
